Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





LOS ANGELES COUNTY SUPPLIERS’

 COMPLIANCE WITH MEDICARE 

  STANDARDS: RESULTS FROM

     UNANNOUNCED VISITS 





                    Daniel R. Levinson

                     Inspector General 


                      February 2008

                     OEI-09-07-00550

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                     S U M M A R Y


                  OBJECTIVE
                  To conduct unannounced site visits of suppliers of Medicare durable
                  medical equipment, prosthetics, orthotics, and supplies (DMEPOS) in
                  Los Angeles County to (1) determine their compliance with selected
                  Medicare supplier standards and (2) identify their atypical
                  characteristics.


                  BACKGROUND
                  DMEPOS are covered under Medicare Part B and include items such as
                  hospital beds, wheelchairs, respirators, walkers, and artificial limbs.
                  DMEPOS suppliers must enroll in the Medicare program to submit
                  claims for Medicare reimbursement. DMEPOS suppliers are required
                  to comply with 5 conditions and 25 supplier standards to enroll in the
                  Medicare program and receive payment for a Medicare-covered item.
                  The Centers for Medicare & Medicaid Services (CMS) contracts with the
                  National Supplier Clearinghouse (NSC) to manage the enrollment and
                  reenrollment of suppliers in the Medicare program.

                  According to the Department of Health and Human Services, Los
                  Angeles is a high-risk area for fraudulent activity involving DMEPOS
                  suppliers. Supplier site inspections conducted by NSC underscore the
                  risks in Los Angeles County. In 2006, NSC conducted 401 inspections
                  in Los Angeles County and revoked the billing privileges of 95 suppliers.

                  In the 12 months beginning July 1, 2006, Medicare allowed
                  approximately $245 million for DMEPOS provided in Los Angeles
                  County and $8.6 billion nationwide.

                  We focused on four requirements with which compliance could be
                  verified quickly through direct observation: suppliers must (1) maintain
                  physical facilities, (2) be accessible during business hours, (3) have
                  visible signs, and (4) post hours of operation. We conducted
                  unannounced site visits of 905 suppliers in Los Angeles County in late
                  2007. In addition, we analyzed the suppliers’ billing patterns.


                  FINDINGS
                  In Los Angeles County, 115 of 905 suppliers (13 percent) did not
                  maintain physical facilities or were not open during unannounced site
                  visits. Thirteen percent of the suppliers we visited (115 of 905) did not
                  maintain physical facilities or were not open during our unannounced


OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   i
E X E C U T I V E                        S U           M M A R Y


                   site visits. Thirty suppliers did not maintain physical facilities, and
                   85 suppliers were not accessible during business hours. Medicare
                   allowed $21 million in the 12 months beginning July 1, 2006, for these
                   suppliers’ claims.

                   Another 79 suppliers (9 percent) were open but did not meet at least
                   one of the two additional requirements for the standards we reviewed.
                   Seventy-eight suppliers did not post hours of operation, but were open
                   during reasonable business hours (10 a.m. to 4 p.m.). Five suppliers did
                   not post signs indicating a business name. Four suppliers did not meet
                   either requirement.
                   An additional 124 suppliers (14 percent) met the requirements for the
                   standards we reviewed, but their claims had in common an atypical
                   characteristic. More than half of the Medicare beneficiaries for these
                   124 suppliers did not receive other Medicare services (such as an office
                   visit) from the ordering physician within a 6-month period preceding the
                   DMEPOS claim. Eighty-nine percent of these suppliers have the
                   primary specialty “Medical Supply Company—Other.”


                   RECOMMENDATION
                   Our findings in this report, along with past Office of Inspector General
                   (OIG) work in Florida, demonstrate that noncompliant suppliers are
                   enrolled in the Medicare program. We recognize that CMS recently has
                   taken action to address vulnerabilities in the DMEPOS benefit,
                   particularly in Florida and California, including initiating a 2-year
                   DMEPOS demonstration project in November 2007. Although this
                   demonstration project has potential to prevent fraud, permanent
                   corrective action is warranted to prevent fraudulent providers from
                   entering and participating in Medicare. Therefore, we recommend that
                   CMS:

                   Strengthen the Medicare DMEPOS supplier enrollment process and
                   ensure that suppliers meet Medicare supplier standards. OIG
                   presented a number of options to CMS in its March 2007 report, “South
                   Florida Suppliers’ Compliance With Medicare Standards: Results From
                   Unannounced Visits” (OEI-03-07-00150). CMS has made progress
                   toward implementing some of those options for strengthening the
                   Medicare DMEPOS supplier enrollment process and compliance with
                   supplier standards. We continue to recommend that CMS:
                   •	      conduct more unannounced site visits to suppliers, which could
                           include full site inspections and abbreviated site inspections, to

 OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   ii
E X E C U T I V E                        S U           M M A R Y


                           supplement, not replace full site inspections and to determine
                           whether suppliers still exist at the addresses on record;
                   •	     perform more rigorous background checks of applicants and
                          currently enrolled high-risk suppliers (including business owners
                          and managing employees);
                   •	     assess the fraud risk of suppliers and focus monitoring and
                          enforcement on high-risk suppliers;
                   •	     increase prepayment review of DMEPOS claims, especially claims
                          from new suppliers and suppliers deemed high risk;
                   •	     require suppliers in areas particularly vulnerable to fraud and
                          abuse to reenroll with NSC more frequently than every 3 years;
                          and
                   •	     strengthen the Medicare supplier standards by establishing a
                          minimum number of hours of operation and establishing
                          minimum inventory requirements for product and service types.

                   In addition, we recommend that CMS:
                   •	     require all suppliers to pay a Medicare enrollment application
                          fee to cover the costs of: (1) full site inspections or abbreviated
                          site inspections to monitor suppliers’ compliance with Medicare
                          standards and (2) criminal background checks;
                   •	     require a supplier to pay an additional Medicare enrollment fee if,
                          during a site visit (conducted during business hours), the
                          supplier’s facility is closed or inaccessible, necessitating an
                          additional site visit; and
                   •	     seek legislative authority to impose temporary moratoriums, on
                          an as-needed basis, on supplier enrollment in high-fraud areas.

                   In addition, we sent to CMS information about the suppliers we visited
                   that did not meet one or more of the four requirements. Based on our
                   findings and its own followup, CMS should take appropriate action.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS stated that it believes that it has already addressed the majority of
                   the options we recommend in this report that also appear in “South
                   Florida Suppliers’ Compliance With Medicare Standards: Results From
                   Unannounced Visits” (OEI-03-07-00150). Specifically, CMS modified its

 OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   iii
E X E C U T I V E                        S U           M M A R Y


                   scope of work with NSC to increase the frequency of unannounced site
                   visits and to assess the fraud risk of suppliers in certain high fraud
                   areas. CMS will consider increasing prepayment review of suppliers’
                   claims and is in the process of conducting “targeted background checks
                   on suppliers.” CMS may consider establishing more frequent
                   reenrollment requirements for suppliers. CMS is seeking public
                   comment on a proposed rule that would establish a minimum number of
                   hours of operation required for suppliers.

                   Regarding the new recommendations in this report, CMS stated that
                   suppliers must pay a fee to the accrediting organization for an initial
                   site visit and that “criminal background checks are conducted as
                   required by State standards.” We note that our new recommendations
                   regarding site inspections and application fees pertain to NSC’s actions
                   to enforce compliance with Medicare supplier standards: the fees we
                   suggest would be paid to the Federal Government. The accrediting
                   organization and NSC are independent of one another and address
                   different standards. We have modified our recommendation to clarify
                   this point. Finally, CMS will consider seeking legislative authority to
                   impose temporary moratoriums on supplier enrollment.

                   CMS did not indicate whether it concurred with our recommendation to
                   establish minimum inventory requirements. We ask that, in its final
                   management decision, CMS more clearly indicate whether it concurs
                   with this recommendation and what steps, if any, it will take to
                   implement it.




 OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   iv
Δ   T A B L E        O F            C O N T E N T S




           EXECUTIVE SUMMARY .................................... i




           INTRODUCTION ........................................... 1 




           FINDINGS ................................................. 8 

                     In Los Angeles County, 115 of 905 suppliers (13 percent)
                     did not maintain physical facilities or were not open
                     during unannounced site visits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                     Another 79 suppliers (9 percent) were open but 

                     did not meet at least one of the two additional requirements 

                     for the standards we reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                     An additional 124 suppliers (14 percent) met the requirements 

                     for the standards we reviewed, but their claims had in common 

                     an atypical characteristic.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 



           R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                     Agency Comments and 

                     Office of Inspector General Response . . . . . . . . . . . . . . . . . . . . . . . 16 




           A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                     A: 	Conditions for Medicare Payments for Durable Medical 

                         Equipment, Prosthetics, Orthotics, and Supplies 

                         (DMEPOS). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                     B: 	Medicare DMEPOS Supplier Standards . . . . . . . . . . . . . . . . . 19 


                     C: 	Supplier Site Visit Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                     D: 	Primary Specialty Supplier Types Visited in 

                         Los Angeles County . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 


                     E: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 




           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 

    I N T R O D    U C T             I O N
  Δ         I N T R O D U C T I O N


                    OBJECTIVE
                    To conduct unannounced site visits of suppliers of Medicare durable
                    medical equipment, prosthetics, orthotics, and supplies (DMEPOS) in
                    Los Angeles County to (1) determine their compliance with selected
                    Medicare supplier standards and (2) identify their atypical
                    characteristics.


                    BACKGROUND
                    Medicare Coverage of Durable Medical Equipment, Prosthetics, Orthotics,
                    and Supplies
                    Pursuant to Title XVIII of the Social Security Act, DMEPOS are covered
                    under Medicare Part B and include such items as hospital beds,
                    wheelchairs, respirators, walkers, artificial limbs, and wound care
                    supplies.1 Medicare pays for DMEPOS that are necessary and
                    reasonable for the treatment of a beneficiary’s illness or injury or to
                    improve the function of a malformed body member. Medicare covers
                    medical equipment only when it is ordered for a beneficiary by a
                    physician or, in some cases, a nonphysician practitioner.
                    Medicare Enrollment of Durable Medical Equipment, Prosthetics, Orthotics,
                    and Supplies Suppliers
                    The Centers for Medicare & Medicaid Services (CMS) contracts with the
                    National Supplier Clearinghouse (NSC), operated by Palmetto
                    Government Benefits Administrator (Palmetto GBA), to manage the
                    enrollment of suppliers. Suppliers must enroll in Medicare to submit
                    claims for reimbursement.2 The enrollment process involves obtaining a
                    National Provider Identifier (NPI), completing a Medicare enrollment
                    application, and satisfying the Medicare DMEPOS conditions and
                    supplier standards.

                    Supplier conditions and standards. Pursuant to 42 CFR § 424.57(b),
                    DMEPOS suppliers must meet five conditions to be eligible to receive
                    payment for a Medicare-covered item. (See Appendix A for a list of
                    these conditions.) In addition to meeting these conditions, suppliers
                    must meet and certify that they meet and will continue to meet the




                            1 Social Security Act §§ 1832, 1834, and 1861.
                            2 42 CFR § 424.505.




OEI-09-07-00550     L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   1
    I N T R O D   U C T             I O N


                   25 standards imposed pursuant to 42 CFR § 424.57(c).3 (See
                   Appendix B for a list of the standards.) CMS can revoke suppliers’
                   billing privileges if they fail to meet the conditions and standards.4
                   Application. New applicants must obtain their NPIs before they can
                   complete an application.5 The NPI is a unique identifier for health care
                   providers that is assigned by the National Plan and Provider
                   Enumeration System. Suppliers also must submit supporting
                   documentation with every application.6 A supplier must complete and
                   submit the Medicare Enrollment Application when:
                   •  enrolling in Medicare for the first time,

                   •       reporting certain changes from the initial application,

                   •       adding another business location,

                   •       verifying the accuracy of information on an original application, or

                   •       reenrolling or deactivating a billing number.7

                   Site visits. NSC can inspect a supplier’s site to ascertain compliance
                   with the conditions and standards8 and to verify enrollment
                   information.9 After a supplier submits an enrollment application, NSC
                   conducts an unannounced site visit to ensure that the supplier complies
                   with the conditions and standards. Following the inspection, NSC
                   notifies the supplier in writing, generally within 60 days, whether it has


                          3 Initially there were 21 supplier standards. Four additional supplier standards were
                       added by a Federal Register notice dated April 10, 2007. The additional supplier
                       standards relate to competitive bidding and supplier accreditation. However, applicable
                       suppliers had until September and October 2007, respectively, to meet the competitive
                       bidding and accreditation requirements.
                           4 42 CFR § 424.57(d).
                           5 Centers for Medicare & Medicaid Services (CMS), “Medicare Enrollment for Durable
                       Medical Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS) Suppliers,” May 2007.
                       Available online at
                       http://www.cms.hhs.gov/MedicareProviderSupEnroll/Downloads/DurableMedicalEquip.pdf.
                       Accessed November 5, 2007.
                           6 42 CFR § 424.510.
                           7 Palmetto Government Benefits Administrator (Palmetto GBA), “Helpful Hints on
                       Completing the 855S for an Additional Location,” revised February 5, 2007. Available
                       online at
                       http://www.palmettogba.com/palmetto/providers.nsf/Attachments/2343214C3D5F4CE685
                       25734E0048000C/$FILE/Helpful+Hints+on+completing+the+855S+-
                       +Additional+Locations.pdf. Accessed November 5, 2007.
                           8 42 CFR § 424.57(c)(8). 

                           9 42 CFR § 424.510(d)(8). 





OEI-09-07-00550    L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   2
    I N T R O D   U C T             I O N


                   approved the application. To continue billing Medicare, the supplier
                   must renew its application every 3 years.10 NSC then may conduct an
                   additional site visit to confirm whether the supplier complies with the
                   conditions and standards. (See Appendix C for more details on the site
                   visit process.)
                   Vulnerabilities in the Site Inspection Process
                   Generally, once a DMEPOS supplier has had an enrollment or
                   reenrollment site visit, NSC does not revisit the supplier for 3 years.
                   NSC may conduct additional site visits if it suspects that a supplier is in
                   violation of one or more Medicare standards. Recent Office of Inspector
                   General (OIG) findings11 suggest that suppliers can defraud Medicare
                   by establishing businesses that are not maintained or staffed after NSC
                   conducts the initial or reenrollment site visit.
                   Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
                   Vulnerabilities in South Florida and Los Angeles County
                   This report is one of a series of recent OIG reports on vulnerabilities in
                   the Medicare DMEPOS benefit, including the March 2007 report,
                   “South Florida Suppliers’ Compliance With Medicare Standards:
                   Results From Unannounced Visits” (OEI-03-07-00150). OIG reviewed
                   suppliers in three South Florida counties (Miami-Dade, Broward, and
                   Palm Beach) to assess their compliance with selected Medicare supplier
                   standards. The review focused on three supplier standards with which
                   compliance could be verified quickly through direct observation and
                   desk review. OIG conducted 1,581 unannounced site visits and
                   identified 491 suppliers (31 percent) that did not maintain physical
                   facilities or were not accessible during reasonable business hours. OIG
                   referred these suppliers to CMS to consider revoking their Medicare
                   billing numbers.

                   Recent work by NSC indicates that DMEPOS suppliers in Los Angeles
                   County may have characteristics similar to those of suppliers in South
                   Florida. In 2006, NSC conducted 401 inspections in Los Angeles County
                   and revoked the billing privileges of 95 suppliers.12 From 2002

                           10 42 CFR § 424.57 (e).
                           11 Office of Inspector General (OIG), “Medical Equipment Suppliers: Compliance With
                      Medicare Enrollment Requirements” (OEI-04-05-00380), March 2007.
                         12 CMS, “Medicare Provider Enrollment Demonstration Involving Suppliers of Durable
                      Medical Equipment, Prosthetics, Orthotics, and Supplies in High-Risk Areas,
                      July 2, 2007.” Available online at
                      http://www.hhs.gov/news/facts/medicarefraud/index.html. Accessed July 19, 2007.



OEI-09-07-00550    L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   3
    I N T R O D   U C T             I O N


                   through 2006, the number of DMEPOS suppliers, the amount of
                   DMEPOS billing, and the number of revocations all increased in
                   Los Angeles County.13 In the 12 months beginning July 1, 2006,
                   Medicare allowed approximately $245 million for DMEPOS provided in
                   Los Angeles County and $8.6 billion nationwide.14
                   Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
                   Demonstration Project
                   On November 1, 2007, CMS began a 2-year demonstration project15
                   involving all DMEPOS suppliers located in Miami-Dade, Broward, and
                   Palm Beach Counties in Florida and Los Angeles, Orange, Riverside,
                   and San Bernardino Counties in California. CMS designed the project
                   to improve its ability to detect and prevent fraud. In the first 3 months
                   of the demonstration, NSC required all suppliers in these seven counties
                   to submit new Medicare Enrollment Applications. If a supplier does not
                   submit an application within 30 days, NSC will immediately revoke its
                   billing privileges. For suppliers that submit new applications, NSC will
                   conduct new site inspections. In addition, NSC will revoke suppliers’
                   billing privileges if suppliers:
                   •	      fail to report changes in ownership or addresses within 30 days of
                           the effective date of the change,
                   •	      are required by NSC to obtain accreditation and fail to do so
                           within 90 days,
                   •	      have owners or managing employees who were convicted of
                           felonies in the last 10 years, or
                   •	      no longer meet each requirement for enrollment.

                   Suppliers covered under the demonstration project will be subject to
                   additional, enhanced review designed to detect fraud.
                   Related Office of Inspector General Studies
                   In 1997, OIG issued “Medical Equipment Suppliers: Assuring
                   Legitimacy” (OEI-04-96-00240). OIG examined Medicare supplier
                   enrollment practices in 12 large metropolitan areas in five States.

                           13 Ibid. 

                           14 OIG analyses of Medicare National Claims History, 2007. 

                           15 Palmetto GBA, “Medicare Provider Enrollment Demonstration Project,” 

                        October 2007. Available online at
                        http://www.palmettogba.com/palmetto/providers.nsf/Attachments/85256D580043E754852
                        57360004A7023/$FILE/NSC+News+-+October+2007.pdf. Accessed November 5, 2007.



OEI-09-07-00550    L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   4
    I N T R O D   U C T             I O N


                   Based on unannounced site visits, OIG found that the enrollment
                   process—desk review and verification of applicants—was unreliable for
                   detecting unethical and improper practices of suppliers, particularly
                   because supplier enrollment at the time did not involve onsite
                   verification of supplier application data. One of the options OIG
                   recommended for ensuring the integrity of Medicare suppliers was for
                   CMS to conduct onsite visits at applicants’ physical locations. CMS
                   concurred but stated that limited resources allowed onsite visits to be
                   conducted only in
                   high-risk areas.

                   In August 2001, OIG issued a follow-up report entitled “Medical
                   Equipment Suppliers: Compliance With Medicare Standards”
                   (OEI-04-99-00670) that assessed how well DMEPOS suppliers were
                   meeting the Medicare standards. OIG found that the expansion of the
                   CMS site inspection program improved supplier compliance with the
                   Medicare standards. OIG made several recommendations to increase
                   the compliance rates further, such as instituting random, unannounced
                   site visits. CMS concurred with the recommendations.

                   In March 2007, OIG issued “Medical Equipment Suppliers: Compliance
                   With Medicare Enrollment Requirements” (OEI-04-05-00380). OIG
                   conducted unannounced site visits in 2005 and found that 10 of the
                   169 DMEPOS suppliers that were reviewed did not exist at their
                   business addresses. However, these 10 suppliers billed Medicare almost
                   $393,000 in the 2 months after OIG had determined that they were
                   nonexistent and received almost $197,000 in reimbursements. The
                   report concluded that out-of-cycle site visits may help to prevent fraud,
                   waste, and abuse in the Medicare program.


                   METHODOLOGY
                   Scope of Review
                   We focused on two supplier standards with which compliance could be
                   verified quickly through direct observation. These standards include
                   four specific requirements:
                   •	      The supplier must maintain a physical facility (Standard 7).

                   •	      The facility must be accessible during reasonable business hours
                           (Standard 8).
                   •	      The facility must have a visible sign (Standard 8).



OEI-09-07-00550    L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   5
    I N T R O D 
U C T             I O N


                  •	      The supplier’s hours of operation must be posted (Standard 8).
                  Sample
                  Our review focused on 905 suppliers in Los Angeles County. Using NSC
                  enrollment data as of August 22, 2007, we identified all active DMEPOS
                  suppliers in Los Angeles County. NSC enrollment data are updated
                  each day as additions and changes are received from suppliers. From
                  this list, we selected seven primary specialty supplier types for inclusion
                  in our review. Appendix D lists the primary specialty supplier types.
                  To be consistent with our 2006 review of South Florida DMEPOS
                  suppliers, we excluded large chain suppliers (25 stores or more) from
                  our review. We also excluded suppliers under investigation by OIG and
                  suppliers whose Medicare billing numbers had been revoked by NSC.
                  Data Collection and Analysis
                  We conducted unannounced site visits to all 905 suppliers to determine
                  whether suppliers complied with the four requirements related to
                  Standards 7 and 8. We recorded all observations using a standardized
                  protocol. OIG staff conducted all site visits in September and
                  October 2007. We developed the following parameters to define supplier
                  compliance with the requirements to maintain a physical facility and be
                  accessible to beneficiaries during business hours:
                  •	      We determined that a supplier did not maintain a physical facility
                          if it did not exist at the business address on file with NSC.
                  •	      We determined that a supplier was not accessible during business
                          hours if it was closed during site visits that occurred on two
                          different weekdays (Monday through Friday). We considered the
                          facility closed if (1) the door was locked (and there was no
                          doorbell) or (2) the door was locked and no one responded to the
                          doorbell (if there was a doorbell). We conducted all visits during
                          the suppliers’ posted business hours. If a supplier did not post
                          business hours, we conducted the visits during reasonable
                          business hours (10 a.m. to 4 p.m., Monday through Friday).
                  •	      We also determined that a supplier was not accessible during
                          business hours on multiple visits if it (1) was closed (i.e., the door
                          was locked) during the first site visit; (2) had posted a sign
                          indicating that the supplier was “out on delivery” or “out to lunch”
                          during the second site visit; and (3) was closed or had posted the
                          same sign during a third site visit.




OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   6
    I N T R O D   U C T             I O N


                   In total, we conducted more than 1,200 unannounced visits. We
                   aggregated the site visit results to determine the number of suppliers
                   that were not in compliance with the four requirements. We reviewed
                   and categorized our direct observations of the physical facilities to
                   provide more detailed information about the site visits and to compare
                   and contrast the suppliers’ observable features. During our site visits,
                   we took photographs of selected suppliers.

                   In addition, we analyzed the Medicare claims patterns of the suppliers
                   we visited and the national population of active and revoked suppliers.
                   (See Table 1 on page 12.)16 Data for the suppliers’ claims came from
                   Medicare’s National Claims History. Supplier enrollment information
                   came from NSC’s supplier enrollment files. We used SAS analytical
                   software to analyze all data.
                   Limitations
                   We designed this review to collect data about DMEPOS suppliers while
                   remaining undetected during unannounced site visits. Our review was
                   limited to providing compliance data on two Medicare supplier
                   standards that include four requirements. We did not conduct full
                   compliance reviews that would address all 25 standards.
                   Standards
                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.




                   16 For this analysis, we limited the population to suppliers that billed more than $10,000
                      for DMEPOS in the 12 months beginning July 1, 2006.



OEI-09-07-00550    L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   7
     Δ         F I N D I N G S

                                                            Thirteen percent of the suppliers we
     In Los Angeles County, 115 of 905 suppliers
                                                            visited (115 of 905) did not maintain
(13 percent) did not maintain physical facilities or        physical facilities or were not open
    were not open during unannounced site visits            during our unannounced site visits to
                                                            their locations in Los Angeles County.
                         These suppliers did not maintain appropriate physical facilities, or their
                         facilities were not open during posted or reasonable business hours on
                         at least two visits. In the 12 months beginning July 1, 2006, Medicare
                         allowed $21 million for these suppliers’ claims.17
                         “Medical Supply Company—Other” was the primary specialty supplier
                         type listed in NSC enrollment data for the majority of suppliers that did
                         not maintain physical facilities or were not accessible during posted or
                         reasonable business hours (99 of 115). Suppliers with this primary
                         specialty accounted for 45 percent of all Los Angeles County suppliers in
                         our review but accounted for 86 percent of suppliers in this category.
                         (See Appendix D for a breakout of all 115 suppliers by primary specialty
                         supplier type.)
                         Three percent of suppliers (30 of 905) did not maintain physical facilities
                         Medicare requires all DMEPOS suppliers to maintain “a physical
                         facility on an appropriate site.”18 However, 30 of the suppliers we
                         visited did not maintain physical facilities. Instead of finding
                         operational facilities, we found vacant facilities or facilities in which
                         other types of businesses were operating.

                         Twenty facilities were vacant. These facilities were vacant and closed for
                         business. Although these suppliers have active enrollment files and
                         most have recent paid Medicare claims, we found no operational
                         businesses at the suppliers’ locations. For all but 5 of these
                         20 suppliers, Medicare allowed claims in the 12 months beginning
                         July 1, 2006. In total, Medicare allowed approximately $3 million for
                         these suppliers in the 12 months beginning July 1, 2006. For example,
                         one supplier associated with a vacant facility was allowed $301,687 in
                         the 12 months beginning July 1, 2006. We observed the same two signs
                         stating “out for delivery” and “return at 2:15 p.m.” in the facility’s
                         window on two visits on different weekdays. The signs appeared to be
                         permanent fixtures, and the facility was devoid of medical supplies or

                               17 At the time that we issued this report, the most recent Medicare claims data
                            available to us covered the 12 months beginning July 1, 2006.
                                 18 42 CFR § 424.57(c).




   OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   8
      F   I N D I N G           S



                          any evidence suggesting that it was an operational business. (See Photo
                          1 below.)


              PHOTO 1
     The supplier was
   actively enrolled in
    Medicare, but the
  facility was vacant.




                              Source: OIG unannounced site visits to DMEPOS facilities in Los Angeles County, September 2007.


                          Eight facilities did not appear to be DMEPOS facilities. Instead of finding
                          medical equipment suppliers, we found other businesses operating at
                          the addresses on record with NSC. In six instances, the businesses
                          were an art gallery, a tutoring business, a trucking company, an
                          insurance sales office, a vitamin supplement company, and physicians’
                          offices. Two additional locations were private residences, with no
                          business signs or posted business hours.

                          For the supplier whose facility is now an art gallery, Medicare allowed
                          approximately $5 million in the 12 months beginning July 1, 2006.
                          Suppliers have 30 days from the date of an address change to inform
                          NSC.19 However, at the time of our visits, the art gallery had been
                          open at the supplier’s address for about 5 months. Medicare allowed
                          more than $1 million during the first 3 months of this 5-month period.20
                          The only other address listed in NSC files for this supplier is a post

                                  19 42 CFR § 424.57(c)(2).
                                  20 At the time we issued this report, we did not have access to the last 2 months of
                             DMEPOS claims for the 5-month period.



OEI-09-07-00550           L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   9
    F   I N D I N G     S


                      office box, which is shared by two other suppliers. These other two
                      suppliers failed NSC site inspections and currently are not enrolled
                      with NSC as active suppliers. For all three suppliers, the post office box
                      is listed as the “pay to” address—the address to which Medicare sends
                      reimbursement checks.

                      The addresses listed with NSC were not valid for two suppliers, and we
                      could not confirm the suppliers’ existence. In both cases, the street
                      addresses existed; however, the suite numbers associated with the
                      suppliers did not. There was no sign indicating that the supplier had
                      moved, or that the supplier occupied another suite in the building.
                      Nine percent of suppliers (85 of 905) were not open during business hours
                      Nine percent of the 905 DMEPOS suppliers were not open during
                      posted or reasonable business hours. The average weekly hours of
                      operation posted for these suppliers was 30 hours compared to 44 hours
                      among the suppliers that were open during business hours.21 When
                      business hours were not posted, we considered 10 a.m. to 4 p.m. on
                      weekdays to be reasonable business hours and conducted our visits
                      accordingly.

                      In the 12 months beginning July 1, 2006, Medicare allowed
                      approximately $11 million for these 85 suppliers’ claims. The median
                      allowed per supplier was $82,314. For example, Medicare allowed
                      $219,226 for one supplier we found inaccessible during its posted
                      business hours. This supplier appeared to share space with a tax return
                      preparation service and a notary public. We photographed the facility
                      during its posted business hours. (See Photo 2 on the next page.) We
                      visited another supplier three times during reasonable business hours,
                      but the supplier changed its posted business hours prior to each of our
                      visits and was closed during each visit. During each visit, we observed
                      no DMEPOS visible through the facility’s windows. Medicare allowed
                      $152,485 for that supplier’s claims in the 12 months beginning
                      July 1, 2006.




                            21 To calculate the average hours of operation, we included only the suppliers that
                          posted hours of operation. Five of the eighty-five suppliers that were closed did not post
                          hours of operation. Of the 790 suppliers that were open during business hours, 78 did not
                          post hours of operation.



OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   10
F    I N D I N G              S      





                      PHOTO 2
               The supplier
               was actively
                 enrolled in
              Medicare but
             not accessible
                      during its
                        posted
            business hours
                        on two
              unannounced
                         visits.




                                    Source: OIG unannounced site visits to DMEPOS facilities in Los Angeles County,
                                    September 2007. Supplier-identifying information was redacted.




                                                                          Nine percent of suppliers (79 of
          Another 79 suppliers (9 percent) were open but                  905) were open but did not post
           did not meet at least one of the two additional                hours of operation and/or did not
             requirements for the standards we reviewed                   post signs with their business
                                                                          names.
                                   Seventy-eight suppliers did not post hours of operation but were open
                                   during reasonable business hours. Five suppliers did not post signs
                                   indicating a business name. Four suppliers did not meet either
                                   requirement.



    OEI-09-07-00550                L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   11
     F    I N D I N G          S


                             The remaining 79 percent of suppliers we visited (711 of 905) met all
                             four of the requirements included in our review.22
                                                                Fourteen percent of the suppliers we
An additional 124 suppliers (14 percent) met the                visited met the four requirements, but
                requirements for the standards                  more than half of the Medicare
  we reviewed, but their claims had in common                   beneficiaries for these 124 suppliers
                      an atypical characteristic                did not receive other Medicare
                                                                services (such as an office visit) from
                             the physicians who ordered the DMEPOS within the 6-month period
                             preceding the DMEPOS claims23 (see Table 1). Generally, physicians
                             provide services prior to ordering medical equipment for their patients.
                             However, Medicare does not require physicians to conduct face-to-face
                             examinations of patients to write a prescription for any DMEPOS
                             except power mobility devices.24

                   TABLE 1                                                                                                                      Suppliers Whose Claims Had
  More than half of the                                                                                                                          An Atypical Characteristic
                                    DMEPOS Suppliers
         beneficiaries for
                                    (Allowed more than $10,000 in Medicare claims
   whom the suppliers               for DMEPOS)                                                                           Population                 Number     Percentage
  billed did not receive            Los Angeles Review Population
          other Medicare
                                           -Met the four requirements we reviewed                                                     427                124           29%
  services (such as an                     -Did not meet one or more of the
   office visit) from the                   requirements we reviewed                                                                  119                 63           53%
         physicians who             National Population
  ordered the DMEPOS.                       -Actively billing suppliers                                                          54,913                4,415            8%
                                            -Revoked suppliers
                                             (July 1, 2006, to present)                                                               919                619           67%
                                 Source: OIG analysis of Medicare National Claims History, 2007.




                                     22 The percentage of suppliers that met the requirement plus the percentage of
                                suppliers that did not meet the requirements does not total 100 percent because of
                                rounding.
                                     23 We reviewed Medicare claims data to determine that the beneficiaries did not see
                                the ordering physician within a 6-month period preceding the DMEPOS claim. The total
                                Los Angeles review population is 905 suppliers. One hundred and seven suppliers had no
                                allowed DMEPOS claims in 12 months beginning July 1, 2006, and were excluded from
                                this table. Two hundred and fifty-two suppliers were allowed less than $10,000 in the
                                same period and also were excluded from the table. Therefore, we analyzed 546 of the 905
                                suppliers in the Los Angeles review population.
                                    24 “Power mobility device means a covered item of durable medical equipment that is
                                in a class of wheelchairs that includes a power wheelchair (a four-wheeled motorized
                                vehicle whose steering is operated by an electronic device or a joystick to control direction
                                and turning) or a power-operated vehicle (a three or four-wheeled motorized scooter that
                                is operated by a tiller) that a beneficiary uses in the home.” 42 CFR § 410.38(c)(2)(i).



 OEI-09-07-00550             L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S                    12
    F   I N D I N G     S


                      This characteristic is prevalent among noncompliant suppliers.
                      Sixty-seven percent of suppliers nationally whose billing privileges were
                      revoked by NSC had a majority of claims for beneficiaries who did not
                      receive other Medicare services from the ordering physicians during the
                      6 months prior to the DMEPOS claim. Similarly, in this review,
                      53 percent of the suppliers that we found to be noncompliant with
                      Medicare standards exhibited this characteristic. In contrast, only
                      8 percent of actively billing suppliers nationally exhibited this pattern.

                      One primary specialty supplier type stands out among suppliers that
                      exhibited this characteristic. Eighty-nine percent of these suppliers
                      (110 of 124) have the primary specialty “Medical Supply Company—
                      Other.” Similarly, 86 percent of the suppliers that did not maintain
                      physical facilities or were not open during unannounced site visits have
                      the primary specialty “Medical Supply Company—Other.” However,
                      this specialty accounts for only 45 percent of the Los Angeles County
                      suppliers in our review.




OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   13
  Δ         R E C O M M E N D A T I O N




                    In total, 194 of the 905 suppliers (22 percent) that we visited did not
                    meet one or more of the requirements for the Medicare DMEPOS
                    standards we reviewed. These suppliers did not maintain physical
                    facilities, were not accessible to beneficiaries during posted or
                    reasonable business hours, and/or failed to post signs indicating a
                    business name and/or hours of operation. An additional 124 suppliers
                    (14 percent) met the requirements for the standards we reviewed but
                    more than half of their Medicare beneficiaries did not receive other
                    Medicare services (such as an office visit) from the physicians who
                    ordered the DMEPOS within the 6-month period preceding their
                    DMEPOS claims.
                    These findings show continued vulnerabilities in the Medicare
                    DMEPOS benefit. In March 2007, OIG reported the results of our
                    unannounced visits to 1,581 suppliers in South Florida. We identified
                    491 suppliers that did not maintain physical facilities or were not
                    accessible during business hours. Our work in Florida and California
                    demonstrates that noncompliant suppliers are enrolled in the Medicare
                    program. Our work also demonstrates that abbreviated site visits may
                    be an efficient use of limited resources to identify suppliers that do not
                    meet the most basic of supplier standards—existing at the locations
                    they report to CMS.

                    We recognize that CMS recently has taken action to address
                    vulnerabilities in the DMEPOS benefit, particularly in Florida and
                    California, including initiating a 2-year DMEPOS demonstration project
                    in November 2007. Although this demonstration project has potential
                    to prevent fraud, permanent corrective action is warranted to prevent
                    fraudulent providers from entering and participating in Medicare.
                    Therefore, we recommend that CMS:
                    Strengthen the Medicare DMEPOS Supplier Enrollment Process and Ensure
                    That Suppliers Meet Medicare Supplier Standards
                    OIG presented a number of options to CMS in its March 2007 report,
                    “South Florida Suppliers’ Compliance With Medicare Standards:
                    Results From Unannounced Visits” (OEI-03-07-00150). CMS has made
                    progress toward implementing some of those options for strengthening
                    the Medicare DMEPOS supplier enrollment process and compliance
                    with supplier standards. We continue to recommend the following:



OEI-09-07-00550     L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   14
    R 	E C O      M M E N D A T                         I O N


                      •	      conduct more unannounced site visits to suppliers, which could
                              include full site inspections and abbreviated site inspections, to
                              supplement, not replace full site inspections and to determine
                              whether suppliers still exist at the addresses on record;
                      •	      perform more rigorous background checks of applicants and
                              currently enrolled high-risk suppliers (including business owners
                              and managing employees);
                      •	      assess the fraud risk of suppliers and focus monitoring and
                              enforcement on high-risk suppliers;
                      •	      increase prepayment review of DMEPOS claims, especially claims
                              from new suppliers and suppliers deemed high risk;
                      •	      require suppliers in areas particularly vulnerable to fraud and
                              abuse to reenroll with NSC more frequently than every 3 years;
                              and
                      •	      strengthen the Medicare supplier standards by establishing a
                              minimum number of hours of operation required for each supplier
                              and establishing minimum inventory requirements for product
                              and service types provided by a supplier.

                      In addition, we recommend that CMS:
                      •	      require all suppliers to pay a Medicare enrollment application fee
                              to cover the costs of: (1) full site inspections or abbreviated site
                              inspections to monitor suppliers’ compliance with Medicare
                              standards and (2) criminal background checks;
                      •	      require a supplier to pay an additional Medicare enrollment fee if,
                              during a site visit (conducted during business hours), the
                              supplier’s facility is closed or inaccessible, necessitating an
                              additional site visit; and
                      •	      seek legislative authority to impose temporary moratoriums, on
                              an as-needed basis, on supplier enrollment in high-fraud areas.

                      In addition, we sent to CMS information about the suppliers we visited
                      that did not meet one or more of the four requirements. Based on our
                      findings and its own followup, CMS should take appropriate action.




OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   15
    R   E C O     M M E N D A T                         I O N 





                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS stated that it believes that it has already addressed the majority of
                      the options we recommend in this report that also appear in “South
                      Florida Suppliers’ Compliance With Medicare Standards: Results From
                      Unannounced Visits” (OEI-03-07-00150). Specifically, CMS modified its
                      scope of work with NSC to increase the frequency of unannounced site
                      visits and to assess the fraud risk of suppliers in certain high fraud
                      areas. Once NSC applies fraud risk indicators to suppliers, CMS will
                      consider increasing prepayment review of suppliers’ claims. CMS stated
                      that it is in the process of conducting “targeted background checks on
                      suppliers.” Depending on the outcome of the DMEPOS demonstration
                      project, CMS may consider more frequent reenrollment requirements
                      for suppliers. In addition, CMS is seeking public comment on a
                      proposed rule that would establish a minimum number of hours of
                      operation required for suppliers.

                      For the first two new recommendations—(1) to establish an application
                      fee to cover the costs of site visits and rigorous background checks and
                      (2) to require a supplier to pay an additional fee if, during a site visit
                      (conducted during business hours), the supplier’s facility is closed or
                      inaccessible, necessitating an additional site visit—CMS referred to the
                      new accreditation process for DMEPOS suppliers. CMS stated that
                      suppliers must pay a fee to the accrediting organization for an initial
                      site visit and that “criminal background checks are conducted as
                      required by State standards.” We note that our new recommendations
                      regarding site inspections and application fees pertain to NSC’s actions
                      to enforce compliance with Medicare supplier standards: the fees we
                      suggest would be paid to the Federal Government. The accrediting
                      organization and NSC are independent of one another and address
                      different standards. We have modified our recommendation to clarify
                      this point.

                      For the third new recommendation, CMS stated that it will consider
                      seeking legislative authority to impose enrollment moratoriums,
                      depending on the outcome of its enrollment demonstrations.

                      CMS did not indicate whether it concurred with our recommendation to
                      establish minimum inventory requirements. We ask that, in its final
                      management decision, CMS more clearly indicate whether it concurs
                      with this recommendation and what steps, if any, it will take to


OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   16
    R   E C O     M M E N D A T                         I O N


                      implement it. The full text of CMS’s comments is provided in
                      Appendix E.




OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   17
     Δ            A P P E N D I X ~ A


                         Conditions for Medicare Payments for Durable Medical Equipment,
                         Prosthetics, Orthotics, and Supplies (DMEPOS)
                         The following conditions appear in 42 CFR § 424.57(b):


                                     1.	 The supplier has submitted a completed application to CMS to
                                         furnish Medicare-covered items including required enrollment
                                         forms. (The supplier must enroll separate physical locations it
                                         uses to furnish Medicare-covered DMEPOS, with the exception
                                         of locations that it uses solely as warehouses or repair
                                         facilities.)

                                     2.	 The item was furnished on or after the date CMS issued to the
                                         supplier a DMEPOS supplier number conveying billing
                                         privileges. (CMS issues only one supplier number for each
                                         location.) This requirement does not apply to items furnished
                                         incident to a physician’s service.

                                     3.	 CMS has not revoked or excluded the DMEPOS supplier’s
                                         privileges during the period which the item was furnished has
                                         not been revoked or excluded.

                                     4.	 A supplier that furnishes a drug used as a Medicare-covered
                                         supply with durable medical equipment or prosthetic devices
                                         must be licensed by the State to dispense drugs. (A supplier of
                                         drugs must bill and receive payment for the drug in its own
                                         name. A physician, who is enrolled as a DMEPOS supplier,
                                         may dispense, and bill for, drugs under this standard if
                                         authorized by the State as part of the physician’s license.)

                                     5.	 The supplier has furnished to CMS all information or
                                         documentation required to process the claim.




OEI-09-07-00550          L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   18
       Δ          A P P E N D I X ~ B


                       Medicare DMEPOS Supplier Standards
                       The following standards appear in 42 CFR § 424.57(c):

                                   1.	 Operates its business and furnishes Medicare-covered items in
                                       compliance with all applicable Federal and State licensure and
                                       regulatory requirements;
                                   2.	 Has not made, or caused to be made, any false statement or
                                       misrepresentation of a material fact on its application for
                                       billing privileges. (The supplier must provide complete and
                                       accurate information in response to questions on its
                                       application for billing privileges. The supplier must report to
                                       CMS any changes in information supplied on the application
                                       within 30 days of the change.);

                                   3.	 Must have the application for billing privileges signed by an
                                       individual whose signature binds a supplier;

                                   4.	 Fills orders, fabricates, or fits items from its own inventory or
                                       by contracting with other companies for the purchase of items
                                       necessary to fill the order. If it does, it must provide, upon
                                       request, copies of contracts or other documentation showing
                                       compliance with this standard. A supplier may not contract
                                       with any entity that is currently excluded from the Medicare
                                       program, any State health care programs, or from any other
                                       Federal Government Executive Branch procurement or
                                       nonprocurement program or activity;

                                   5.	 Advises beneficiaries that they may either rent or purchase
                                       inexpensive or routinely purchased durable medical
                                       equipment, and of the purchase option for capped rental
                                       durable medical equipment, as defined in § 414.220(a) of this
                                       subchapter. (The supplier must provide, upon request,
                                       documentation that it has provided beneficiaries with this
                                       information, in the form of copies of letters, logs, or signed
                                       notices.);

                                   6.	 Honors all warranties expressed and implied under applicable
                                       State law. A supplier must not charge the beneficiary or the
                                       Medicare program for the repair or replacement of Medicare
                                       covered items or for services covered under warranty. This
                                       standard applies to all purchased and rented items, including


OEI-09-07-00550        L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   19
    A   P   P E N D   I X            ~           B


                                          capped rental items, as described in § 414.229 of this
                                          subchapter. The supplier must provide, upon request,
                                          documentation that it has provided beneficiaries with
                                          information about Medicare covered items covered under
                                          warranty, in the form of copies of letters, logs, or signed
                                          notices;

                                  7.	 Maintains a physical facility on an appropriate site. The
                                      physical facility must contain space for storing business
                                      records including the supplier’s delivery, maintenance, and
                                      beneficiary communication records. For purposes of this
                                      standard, a post office box or commercial mailbox is not
                                      considered a physical facility. In the case of a multi-site
                                      supplier, records may be maintained at a centralized location;

                                  8.	 Permits CMS, or its agents to conduct onsite inspections to
                                      ascertain supplier compliance with the requirements of this
                                      section. The supplier location must be accessible during
                                      reasonable business hours to beneficiaries and to CMS, and
                                      must maintain a visible sign and posted hours of operation;

                                  9.	 Maintains a primary business telephone listed under the name
                                      of the business locally or toll-free for beneficiaries. The
                                      supplier must furnish information to beneficiaries at the time
                                      of delivery of items on how the beneficiary can contact the
                                      supplier by telephone. The exclusive use of a beeper number,
                                      answering service, pager, facsimile machine, car phone, or an
                                      answering machine may not be used as the primary business
                                      telephone for purposes of this regulation;

                                  10. Has a comprehensive liability insurance policy in the amount
                                      of at least $300,000 that covers both the supplier’s place of
                                      business and all customers and employees of the supplier. In
                                      the case of a supplier that manufactures its own items, this
                                      insurance must also cover product liability and completed
                                      operations. Failure to maintain required insurance at all
                                      times will result in revocation of the supplier’s billing
                                      privileges retroactive to the date the insurance lapsed;

                                  11. Must agree not to contact a beneficiary by telephone when
                                      supplying a Medicare-covered item unless one of the following
                                      applies:




OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   20
    A   P   P E N D   I X            ~           B


                                       i.	 The individual has given written permission to the supplier
                                           to contact them by telephone concerning the furnishing of a
                                           Medicare-covered item that is to be rented or purchased.

                                      ii.	 The supplier has furnished a Medicare-covered item to the
                                           individual and the supplier is contacting the individual to
                                           coordinate the delivery of the item.

                                     iii.	 If the contact concerns the furnishing of a Medicare-covered
                                           item other than a covered item already furnished to the
                                           individual, the supplier has furnished at least one covered
                                           item to the individual during the 15-month period preceding
                                           the date on which the supplier makes such contact.

                                  12. Must be responsible for the delivery of Medicare covered items
                                      to beneficiaries and maintain proof of delivery. (The supplier
                                      must document that it or another qualified party has at an
                                      appropriate time, provided beneficiaries with necessary
                                      information and instructions on how to use Medicare-covered
                                      items safely and effectively);

                                  13. Must answer questions and respond to complaints a
                                      beneficiary has about the Medicare-covered item that was sold
                                      or rented. A supplier must refer beneficiaries with Medicare
                                      questions to the appropriate carrier. A supplier must
                                      maintain documentation of contacts with beneficiaries
                                      regarding complaints or questions;

                                  14. Must maintain and replace at no charge or repair directly, or
                                      through a service contract with another company,
                                      Medicare-covered items it has rented to beneficiaries. The
                                      item must function as required and intended after being
                                      repaired or replaced;

                                  15. Must accept returns from beneficiaries of substandard (less
                                      than full quality for the particular item or unsuitable items,
                                      inappropriate for the beneficiary at the time it was fitted and
                                      rented or sold);

                                  16. Must disclose these supplier standards to each beneficiary to
                                      whom it supplies a Medicare-covered item;

                                  17. Must comply with the disclosure provisions in § 420.206 of this
                                      subchapter;

                                  18. Must not convey or reassign a supplier number;

OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   21
    A   P   P E N D   I X            ~           B


                                  19. Must have a complaint resolution protocol to address
                                      beneficiary complaints that relate to supplier standards in
                                      paragraph (c) of this section and keep written complaints,
                                      related correspondence and any notes of actions taken in
                                      response to written and oral complaints. Failure to maintain
                                      such information may be considered evidence that supplier
                                      standards have not been met. (This information must be kept
                                      at its physical facility and made available to CMS, upon
                                      request.);

                                  20. Must maintain the following information on all written and
                                      oral beneficiary complaints, including telephone complaints, it
                                      receives:

                                       i.	 The name, address, telephone number, and health insurance
                                           claim number of the beneficiary.

                                      ii.	 A summary of the complaint; the date it was received; the
                                           name of the person receiving the complaint, and a summary
                                           of actions taken to resolve the complaint.

                                     iii.	 If an investigation was not conducted, the name of the
                                           person making the decision and the reason for the decision.

                                  21. Provides to CMS, upon request, any information required by
                                      the Medicare statute and implementing regulations.
                                  22. All suppliers of DMEPOS and other items and services must
                                      be accredited by a CMS-approved accreditation organization in
                                      order to receive and retain a supplier billing number. The
                                      accreditation must indicate the specific products and services,
                                      for which the supplier is accredited in order for the supplier to
                                      receive payment for those specific products and services.

                                  23. All DMEPOS suppliers must notify their accreditation
                                      organization when a new DMEPOS location is opened. The
                                      accreditation organization may accredit the new supplier
                                      location for three months after it is operational without
                                      requiring a new site visit.

                                  24. All DMEPOS supplier locations, whether owned or
                                      subcontracted, must meet the DMEPOS quality standards and
                                      be separately accredited in order to bill Medicare. An
                                      accredited supplier may be denied enrollment or their



OEI-09-07-00550       L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   22
    A P P E N D   I X            ~           B


                                      enrollment may be revoked, if CMS determines that they are
                                      not in compliance with the DMEPOS quality standards.

                              25. All DMEPOS suppliers must disclose upon enrollment all
                                  products and services, including the addition of new product
                                  lines for which they are seeking accreditation. If a new
                                  product line is added after enrollment, the DMEPOS supplier
                                  will be responsible for notifying the accrediting body of the
                                  new product so that the DMEPOS supplier can be re-surveyed
                                  and accredited for these new products.




OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   23
  Δ               A P P E N D I X ~ C

                         Supplier Site Visit Process
                         According to Palmetto Government Benefits Administrator (Palmetto
                         GBA), supplier site inspections are unannounced and inspectors
                         generally will attempt to conduct a second site visit if the supplier is
                         inaccessible during the initial visit.
                         Unannounced Site Visits. The following appears on the Palmetto GBA Web
                         site, in the supplier-guidance document, “Can I make an appointment for
                         my site visit?”

                                     Site visits are unannounced and will take place during your posted
                                     hours of operation. Supplier Standard #8 requires the location
                                     must be accessible during reasonable business hours. If a site
                                     inspector comes to your location outside of the posted hours of
                                     operation, the inspector will attempt a subsequent site visit during
                                     the posted hours.

                                     If, during the second attempt, a site inspector reports the facility is
                                     not open for business or could not complete the visit during the
                                     posted hours of operation, a denial shall not be issued. In these
                                     cases, the applicant will receive a letter stating a site visit was
                                     unable to be conducted and informing the applicant to submit a
                                     new application at such a time when a site inspection can be
                                     completed. If the site visit could not be completed for an existing
                                     supplier, the supplier number may be revoked as appropriate.25
                         Attempts To Complete a Site Visit. The following appears on the Palmetto
                         GBA Web site, in the supplier-guidance document, “How many attempts
                         are made to complete a visit?”

                                     Generally, two attempts are made to complete a visit. However, if
                                     on the first attempt the inspector finds the facility is still under
                                     construction or other obvious indications the facility is not a true
                                     operating location, or there is no visible sign or office hours posted,
                                     the site inspector will not make a second attempt and the NSC will
                                     be notified the visit could not be completed.




                                 25 Available online at
                            http://www.palmettogba.com/palmetto/providers.nsf/44197232fa85168985257196006939d
                            d/85256d580043e75485256d5f00624eb1?OpenDocument. Accessed November 6, 2007.



OEI-09-07-00550          L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   24
    A P P E N D   I X            ~           C


                              If an attempt is made outside of the posted hours of operation, the
                              inspector may leave a notice and will make a second attempt
                              during the posted hours of operation. However, if the business is
                              still inaccessible during the second attempt, the site inspector will
                              not make any further attempts.

                              The hours of operation indicate when a supplier is open and
                              available. During these hours, a beneficiary, CMS or its agents
                              should be able to visit the facility. If a supplier goes to lunch from
                              1:00 pm to 2:00 pm, then this needs to be posted along with the
                              hours of operation. If your posted hours state you are open from
                              9:00 am to 5:00 pm, then the supplier should be available from
                              9:00 am to 5:00 pm.

                              An initial application will not be denied because of the NSC or its
                              subcontractor’s inability to conduct a site visit. In these cases, the
                              applicant will receive a letter stating a site visit was unable to be
                              conducted and to submit a new application at such time when a
                              site visit can be completed.26




                          26 Available online at
                     http://www.palmettogba.com/palmetto/providers.nsf/44197232fa85168985257196006939d
                     d/85256d580043e7548525734800479abb?OpenDocument. Accessed November 6, 2007.



OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   25
  Δ            A P P E N D I X ~ D



     Primary Specialty Supplier Types Visited in Los Angeles County

                                                                                                                            Number of                     Percentage of
                                                                                                                         Suppliers That                   Suppliers That
                                                                                                                       Did Not Maintain                 Did Not Maintain
                                                                                                                      Physical Facilities              Physical Facilities
                                                            Number Of                      Percentage Of                   or Were Not                      or Were Not
     Primary specialty                                       Suppliers                        Suppliers*                    Accessible                      Accessible*

     Pharmacy                                                            452                          49.9%                                 13                    11.3%

     Medical Supply Company—Other                                        405                          44.8%                                 99                    86.1%

     Medical Supply Company With
                                                                           23                           2.5%                                  1                     0.9%
     Respiratory Therapist
     Medical Supply Company—Certified
                                                                           11                           1.2%                                  0                     0.0%
     Orthotist/Prosthetist
     Medical Supply Company—Certified
                                                                             8                          0.9%                                  1                     0.9%
     Prosthetist
     Medical Supply Company—Certified
                                                                             5                          0.6%                                  1                     0.9%
     Orthotist
     Medical Supply Company—
                                                                             1                          0.1%                                  0                     0.0%
     Registered Pharmacist
       Total                                                             905                        100.0%                                115                  100.1%**

     Source: Office of Inspector General analysis of primary specialty types listed in August 22, 2007, National Supplier Clearinghouse enrollment
     data.

       * Percentages are rounded. 

       ** Column does not total 100 percent because of rounding. 





OEI-09-07-00550                     L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S                  26
  Δ               A P P E N D I X ~ E

      Agency Comments




OEI-09-07-00550          L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   27
    A P P E N D   I X            ~           E




OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   28
    A P P E N D   I X            ~           E




OEI-09-07-00550   L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   29
Δ          A C K N O W L E D G M E N T S



                   This report was prepared under the direction of Timothy S. Brady,
                   Regional Inspector General for Evaluation and Inspections in the San
                   Francisco regional office, and Deborah W. Harvey, Deputy Regional
                   Inspector General.

                   Michael Henry and Steven Zerebecki served as the team leaders for this
                   study, and China Tantameng served as the lead analyst. Other
                   principal Office of Evaluation and Inspections staff from the San
                   Francisco regional office who contributed to the report include Scott
                   Hutchison, Cynthia Lemesh, Veronica Vallejo, and Marcia Wong.
                   We would like to acknowledge the special contributions of the Office of
                   Evaluation and Inspections in the Philadelphia regional office, under
                   the direction of Robert A. Vito, Regional Inspector General for
                   Evaluation and Inspections, and Linda M. Ragone, Deputy Regional
                   Inspector General. Contributing staff from the Philadelphia office
                   include Eric Biersmith, Tanaz Dutia, Diane Epstein, Maria Johnson,
                   Conswelia McCourt, Lauren McNulty, Emily Multari, Roman
                   Strakovsky, and Stephanie Yeager.

                   We would also like to acknowledge the contributions of each Office of
                   Inspector General component, including: the Immediate Office of the
                   Inspector General, the Office of Audit Services, the Office of Counsel to
                   the Inspector General, the Office of Evaluation and Inspections, the
                   Office of Investigations, and the Office of Management and Policy.
                   Contributing staff from these offices include Sarah Ambrose, Eddie
                   Baker, Jr., Michael Barcelona, Anne Bracken, Marcus Britton, Megan
                   Buck, Elaine Chin, Amelia Cojuangco, Sharon Colby, Peggy Daniel,
                   Robert DeConti, David Denniston, Shon Dormoy, Jaime Durley, Taryn
                   Eckstein, Debra Edgerson, Mandy Fong, Lucia Forte, Rob Gibbons,
                   Gopa Guha, Camille Harper, Russ Hereford, Ana Hernandez, Doris
                   Jackson, Il Yong Jeon, Jennifer Jones, Judy Kellis, Tom Komaniecki,
                   Haidee Lee, Erin Lemire, Christina Lester, Christi Macrina, Kevin
                   Manley, Scott Manley, Beth McDowell, Amber Meurs, Christine
                   Moundas, Gerius Patterson, Brian Pattison, Gerry Roy, Marcia Sayer,
                   Louise Schoggen, Alicia Simon, James Sinkamnoonsak, Amanda
                   Thandi, Cynthia Thomas, Ivan Troy, Sue Waddell, Gregory Wellins,
                   Brian Whitley, Marcia Wong, and Mina Zadeh.




OEI-09-07-00550    L O S A N G E L E S C O U N T Y S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   30
